 Investigative Report of
 Markley Cove Marina




    Date Posted to Web: July 30, 2014




This is a version of the report prepared for public release.
                                          SYNOPSIS

The Office of Inspector General initiated this investigation in September 2013 after receiving an
allegation that the Bureau of Reclamation (USBR) intended to award a noncompetitive 30-year
concession contract to John and Linda Frazier of Winters, CA, to operate the Markley Cove
Marina on Lake Berryessa in Napa Valley County, CA, potentially violating USBR and U.S.
Department of the Interior (DOI) regulations. The allegation further stated that the former
director of USBR’s Mid-Pacific Region may have arranged this contract and that high-level
USBR and DOI executives may also have been involved.

Since May 2013, the Fraziers have been operating Markley Cove Marina under a 19-month
interim concession contract with two 1-year optional extensions. The purpose of this interim
contract is to provide uninterrupted public services on Lake Berryessa after a previous
concession contract was terminated in December 2012. The interim contract was awarded by
Drew Lessard, USBR Area Manager, Central California Area Office, in accordance with USBR
directives and standards.

The USBR officials we interviewed stated that USBR intends to open the bidding process for a
competitive contract when the Fraziers’ current interim contract ends. Our investigation did not
reveal any mismanagement or unlawful involvement by the former director of the Mid-Pacific
Region or any other USBR or DOI executives or officials. We provided this report to USBR’s
Acting Commissioner for his information.

                                       BACKGROUND

Markley Cove Marina, located on Lake Berryessa in Napa Valley County, CA, is operated by
John and Linda Frazier of Winters, CA. According to Linda Frazier, the marina was originally
owned and operated by her husband’s father, John Carl Frazier. The Bureau of Reclamation
(USBR) awarded the original 50-year concession contract to John Carl Frazier in the 1950s, and
Linda and John Frazier took over the marina’s operation in 1987. The marina is one of several
contracted concession sites around Lake Berryessa.

In 2007, the Fraziers’ contract was nearing its expiration. USBR issued requests for proposals
(RFPs) from potential concession contractors to take over concession operations at the lake. The
Fraziers submitted a proposal for Markley Cove, and USBR initially told them they had won the
contract. After USBR’s lawyers discovered a flaw in the RFP, however, the contract was re-
solicited.

The Fraziers submitted a second proposal, but Pensus Lake Berryessa Properties (Pensus), LLC,
of Phoenix, AZ, won the re-solicited contract in April 2010. After Pensus was awarded the
contract, Linda Frazier said, she and her husband were upset and complained to their
Congressman because they had spent $200,000 on bid preparation fees for the two proposals and
they did not feel USBR had treated them fairly.

Before Pensus could begin operations at Lake Berryessa, some of the other contractors that had
lost their bids decided to remove all salvageable materials from their concession sites. Pensus



                                                                                                    1
was therefore unable to open some concessions on time, and while the company had
subcontracted with the Fraziers to operate the marina, other services around the lake were
affected.

Because Pensus was not prepared to provide public services at the marina, its contract was
terminated on December 6, 2012, for failure to perform. On May 1, 2013, USBR awarded a 19-
month interim contract with two 1-year optional extensions (Contract No. 13-LC-20-0320) to the
Fraziers so that Markley Cove could continue to operate.

                               DETAILS OF INVESTIGATION

We initiated this investigation on September 17, 2013, after receiving an anonymous complaint
that USBR may be planning to award a noncompetitive 30-year concession contract to the
Fraziers to operate Markley Cove Marina. The complainant alleged that awarding this contract
would potentially violate USBR and U.S. Department of the Interior (DOI) regulations. The
complainant further alleged that the former director of USBR’s Mid-Pacific Region may have
arranged the contract in question and that high-level USBR and DOI executives may also have
been involved.

We did not find evidence to support the allegation that USBR is planning to award a long-term
noncompetitive contract to the Fraziers. We interviewed Linda Frazier; Drew Lessard, Area
Manager for the Central California Area Office; the former director of the Mid-Pacific Region;
and David Murillo, the current director of the Mid-Pacific Region. All indicated that that they
knew a future long-term contract for Markley Cove would be competitively advertised.

During her interview, Linda Frazier said she had had some contact with the former director of
the Mid-Pacific Region before the interim contract was awarded, but he did not promise them a
long-term contract. She said that the former director was one of the few USBR executives who
took the time to personally inspect the facilities at Lake Berryessa.

As part of our investigation, we examined the current interim contract under which the Fraziers
are operating Markley Cove. We asked Lessard, as well as the former director of the Mid-Pacific
Region and Murillo, about their involvement in the contract process.

Lessard said he was responsible for awarding the interim contract to the Fraziers in May 2013.
He said providing uninterrupted public marina services on Lake Berryessa was a primary USBR
concern, which was why he decided to award the interim contract until a long-term competitive
contract was ready to be advertised.

The former director of the Mid-Pacific Region, who served in that role from May 2008 until
December 2012, said he had been responsible for the award and termination of the Pensus
contract, but had left his position before the interim contract was awarded. He is no longer
involved in the contracting process for the region. He said that before he left, he directed Lessard
to develop a plan for providing marina, lodging, and associated services on Lake Berryessa until
new long-term competitive contracts for the lake’s various concessions could be awarded. The
former director told us that he did not direct Lessard to award the interim contract to the Fraziers,



                                                                                                   2
but he agreed with Lessard’s decision to do so. He said that he felt awarding the interim contract
to the Fraziers was a “good public decision.”

We reviewed Lessard’s and the former director’s emails and found no evidence of improper
conduct or mismanagement.

Murillo said he became the director of the Mid-Pacific Region on December 15, 2012.
According to Murillo, the award of the interim contract was one of the Region’s priorities. Like
the former director, Murillo said that he did not direct Lessard to award the interim contract, but
he supported the decision because it allowed USBR to continue to provide public marina services
on Lake Berryessa until a long-term competitive contract could be awarded.

Both the former director and Murillo said no one in USBR or DOI pressured them regarding any
of their decisions concerning concession contracts at Lake Berryessa. Moreover, neither was
aware of any pressure placed on Lessard to award the interim contract to the Fraziers. Lessard
also said that he was not influenced by the former director or any other USBR or DOI executive
to award the Fraziers the interim contract.

                                           SUBJECT

Former Director, USBR Mid-Pacific Region.

                                         DISPOSITION

We provided this report to USBR’s Acting Commissioner for his information.




                                                                                                 3
